NOTE: Because this report assesses potential vulnerabilities in IT security, only a summary of
the report is posted.

Report Title: Review of NARA’s Information Security Program
Report Number: 06-09
Date Issued: August 9, 2006

Review of NARA’s Information Security Program
The overall objective of our review was to determine if the National Archives and Record
Administration is making satisfactory progress establishing an information security program that
includes appropriate controls required by federal legislation. Specifically, we sought to
determine whether or not NARA (a) has up-to-date, documented security policies; (b) has
documented procedures and controls to implement the policies; (c) has implemented the security
procedures and controls, and reinforced them through training; (d) routinely tests and reviews the
adequacy and effectiveness of its procedures and controls; and (e) has successfully integrated the
policies, procedures, and controls into a comprehensive security program that is an integral part
of its organizational culture.

Our review revealed that (a) NARA’s network perimeter/firewall security needs improvement;
(b) the agency’s computer network operating system software and electronic message software
do not ensure a secure computing environment for the agency’s computer network users; (c)
NARA officials have not established a 24-hours-per-day/7-days-per-week computer security
incident response capability; performed any testing to ensure that the computer incident response
team will function in the most efficient and effective manner possible; or conducted post incident
activities in accordance with the guidance in National Institute of Standards and Technology
Special Publication 800-61, Computer Security Incident Handling Guide, and the NARA
Computer Security Incident Handling Guide; (d) in the area of contingency planning, NARA’s
recovery strategy for quickly and effectively restoring its mission critical IT systems after a
severe service disruption or disaster is inadequate; contingency plans were not prepared for two
of NARA’s IT systems; the NH Disaster Recovery Plan was inadequate (i.e., critical information
was missing from the plan) and, of 28 mission critical and non-mission critical IT systems
reviewed, none had a plan for testing its contingency plan, nor had any testing been
accomplished; and (e) improvement is needed in NARA’s security certification and accreditation
process, specifically, the preparation, maintenance, and update of system security plans;
preparation of plans of action and milestones; and tasks associated with the continuous
monitoring process.

We made 12 recommendations that, when implemented by management, will assist the agency in
establishing an information security program that meets the Federal Information Security
Management Act and the National Institute of Standards and Technology requirements, and will
eliminate the need to report information security as a material weakness in the FMFIA report.
Management concurred with two recommendations, partially concurred with two
recommendations, and nonconcurred with eight recommendations in the report. The report is
currently being reviewed by the Archivist of the United States.
